June 1, 2009

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Supply Management’s Oversight of Delegations of Authority
         (Report Number CA-AR-09-005)

This report presents the results of our audit of Supply Management’s oversight of
delegations of authority (DOA) (Project Number 08YG036CA000). We previously
performed detailed reviews of three DOAs, and this audit was self-initiated to review
oversight controls for additional DOAs and to summarize the results of the various
reviews. This report addresses U.S. Postal Service operational risks. See Appendix A
for additional information about this audit.

Conclusion

The Postal Service established and followed procedures for approving DOAs. These
procedures provide for review of requested DOAs by the Executive Committee (EC),
Business Evaluation, Law Department, and Supply Management before approval.

However, once contractual authority is delegated, the Postal Service does not have
adequate controls to ensure financial due diligence and that the principles guiding the
DOAs are met. Specifically, Supply Management did not have procedures for
maintaining a current list of DOAs and DOA files. In addition, although Supply
Management placed minimum oversight requirements in the DOA letters, they did not
document and implement a process to ensure delegatees complied with the
requirements. We found that even these minimum requirements were generally not
met. Additionally, our prior detailed review of three DOAs reported significant
weaknesses in administering the associated agreements.

The Postmaster General (PMG) and Vice President, Supply Management, have
stressed that a rigorous business process is necessary to protect the Postal Service’s
interest because DOAs allow for contracts and agreements to be entered into outside of
the normal purchasing process. As such, the current process for managing DOAs after
approval does not ensure appropriate financial due diligence and oversight, subjecting
the Postal Service to financial and legal risks that are not in the organization’s best
interest and could negatively impact the Postal Service’s public image and brand.
Supply Management’s Oversight of                                                                     CA-AR-09-005
 Delegations of Authority


Upon our request, Supply Management coordinated with delegatees and estimated that
expenditures for goods and services purchased through DOAs totaled approximately
$208 million in fiscal years (FYs) 2007 and 2008. Because significant disbursements
are associated with these DOAs and oversight controls are significantly lacking, we are
reporting $191.2 million1 as disbursements at risk2 in our Semiannual Report to
Congress. The issues could result in negative publicity to the Postal Service; therefore,
we will also note this non-monetary impact for goodwill/branding in our Semiannual
Report to Congress.

Procedures for Maintaining DOA List and Files

Supply Management did not have procedures for maintaining a current list of DOAs and
DOA files. The Travel, Retail, and Temporary Services Category Management Center
(CMC) in Denver, CO, is responsible for the DOA process and associated controls.
CMC personnel stated they do not have the resources to develop procedures for
maintaining a current list of DOAs and DOA files. This information is critical to ensure
appropriate oversight of the DOAs. For example, the information helps ensure DOAs
are properly updated when delegatees are no longer employed by the Postal Service or
have moved to another position within the Postal Service. See Appendix B for our
detailed analysis of this topic.

We recommend the Vice President, Supply Management:

1. Require the Travel, Retail, and Temporary Services Category Management Center
   to develop and follow procedures for maintaining a current list of delegations of
   authority and delegation of authority files.

Procedures to Ensure Meeting Minimum DOA Control Requirements

Supply Management placed minimum control requirements in the DOA letters that
reflect principles that are critical to ensuring due diligence and oversight; however, they
did not document and implement a process to ensure delegatee compliance. The
requirements focus on ensuring the fair and ethical treatment of all suppliers and
obtaining the best value for the Postal Service. Once authority has been delegated,
delegatees are responsible for overseeing the resulting contracts or agreements and
ensuring DOA letter requirements are met. Supply Management personnel stated they
do not have the resources necessary to provide detailed oversight of all DOAs. In
addition, Supply Management has attempted to collect annual reports from delegatees,
but delegatees have not always been responsive to their requests.

1
  We are only reporting $191.2 of the $208 million as disbursements at risk, because $7 million was previously
reported in Audit Report CA-AR-01-001, Controls over Delegations of Authority of Medical Agreements, dated
October 17, 2008. Also, $9.7 million of the expenditures were related to the legal services’ DOA. Supply
Management contracting officers sign and oversee legal services contracts, thereby reducing the risk associated with
the expenditures.
2
  Disbursements made where employees did not follow appropriate internal controls and processes.




                                                         2
Supply Management’s Oversight of                                                CA-AR-09-005
 Delegations of Authority



We identified instances where the delegatees did not comply with the DOA letter control
requirements. For example, delegatees for the EEO – Investigative Services, EEO –
Final Agency Decision Writers, and Medical Services DOAs did not adequately
document the supplier selection process to ensure compliance with the best value
requirements of the DOAs. By not enforcing even minimal controls, the Postal Service
faces increased risk regarding the disbursements and revenues these DOAs control
and the goods and services obtained through this delegated authority. See Appendix B
for our detailed analysis of this topic.

We recommend the Vice President, Supply Management:

2. Remind delegatees of their responsibility to ensure compliance with their delegation
   of authority letters, and require delegatees to certify they have instituted a system of
   controls and oversight to ensure:

   •   Best value determinations are performed and documented.
   •   Annual reports are developed and provided to Supply Management detailing
       financial activities, including the number of contracts or agreements entered into
       and associated expenditures.
   •   Annual ethics training is completed and documented for staff involved in
       administering contracts or agreements.

3. Require the Travel, Retail, and Temporary Services Category Management Center
   to develop procedures for collecting reports required under the delegations of
   authority and for reviewing delegatees’ control and oversight systems to ensure the
   delegation of authority letter minimum control requirements are met. If minimum
   control requirements are not met, discontinuation should be considered, with the
   results and justification documented in an oversight file.

Management’s Comments

Management agreed with the recommendations and that improvements are needed to
the overall delegation of authority program. However, management did not agree that
the overall risk associated with the disbursements and goodwill/branding is as much of
an impact as detailed in the report. Management’s internal reviews indicate that while
oversight was not always documented, accountable personnel were not completely
amiss in their responsibilities. Therefore, without auditing each delegation, it is
impossible to determine a true risk figure. Management also highlighted that
disbursements at risk were overstated because $9.6 million in legal service’s
expenditures are handled through Supply Management contracts and thus should not
have been included in the amount presented. See Appendix C for management’s
comments, in their entirety.




                                             3
Supply Management’s Oversight of                                                                    CA-AR-09-005
 Delegations of Authority


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. The absence of Supply Management oversight
controls places disbursements under these delegations at risk. Disbursements are
reported as being at risk when there is not an effective oversight and control mechanism
in place. Thus, all delegations are considered at risk due to the lack of an oversight
safety net. Though a separate issue, we agree it is difficult to assess whether or not
delegatees are amiss in their responsibilities especially without oversight controls.

In regards to the $9.6 million legal service’s DOA expenditures, CMC oversight was not
adequate. CMC personnel were not monitoring the legal services expenditures3 and
were not aware that other Supply Management contracting officers were involved in the
legal services contracting process until it was brought to their attention during the OIG
review. However, we agree that the involvement of the other contracting officers
managing the contracts as non-delegated contracts reduces the risk associated with the
DOA. As such, we have adjusted the disbursements at risk amount to $191.2 million.

The OIG considers recommendations 1 through 3 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective action(s) are completed. These recommendations should not be
closed in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendation(s) can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.


       E-Signed by Miguel Castillo
    VERIFY authenticity with ApproveIt




Miguel A. Castillo
Acting Deputy Assistant Inspector General
 for Support Operations

cc: Joseph Corbett
    Mark P. Nepi
    Susan A. Witt
    Katherine S. Banks

3
    The legal services DOA delegate was incorrectly reporting expenditures as revenue to the CMC.




                                                          4
Supply Management’s Oversight of                                                                     CA-AR-09-005
 Delegations of Authority


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service’s Supplying Principles and Practices requires the Vice President,
Supply Management, to ensure that all Postal Service supplying activities further the
business and competitive interests of the Postal Service. In turn, the Vice President,
Supply Management, has delegated to certain individuals the authority to negotiate,
award, modify, and terminate contracts, and, in some cases, to re-delegate these
authorities. Individuals delegated any or all of these authorities must ensure that all of
their actions, including negotiations, contract awards, modifications, and terminations,
are within the scope of their delegated authority before taking those actions. The
Travel, Retail, and Temporary Services CMC in Denver, CO, is responsible for the DOA
process and associated controls.

In an October 26, 2004, letter titled Contracting Authority and the Involvement of the
Postal Service in Business Deals, the PMG stated he had become aware of a need for
a better understanding regarding the negotiation and execution of contracts and other
business dealings between the Postal Service and members of the private sector. The
letter detailed the definition of a contract4 and the parties to be involved when the Vice
President, Supply Management delegates contractual authority outside of the normal
purchasing process5, and stressed the importance of a rigorous business process for
contracts made outside the normal purchasing process. The letter discusses the
potential harm the Postal Service may suffer if it does not properly vet potential
contracts. Potential harm includes financial liability, public embarrassment, and
damage to the Postal Service’s reputation and brand. The letter concluded that Postal
Service officials must be fully aware of their responsibilities as part of the government
and must ensure the interests of the Postal Service as a whole have been fully vetted
and are fully protected.

In an August 25, 2005, letter titled Delegations, the Vice President, Supply
Management, announced a new process for obtaining DOAs from Supply Management
to enter into contracts. The letter set forth the process the Postal Service would follow
to implement the steps the PMG identified in his October 26, 2004, letter. The Vice
President, Supply Management, expected the new process to provide better visibility
and increased support for ongoing initiatives, while simultaneously reducing the Postal
Service’s risk.

In conjunction with other stakeholders, Supply Management developed a process for
approving DOAs. After review by Labor Relations and the Strategic Initiative Action
Group, a prospective DOA is initiated through a Communications Notice signed by the
appropriate EC member and distributed to all other EC members and stakeholders as

4
 The letter defined a contract as an agreement between two or more parties that can be legally enforced.
5
 The letter specified that these delegations require the ongoing involvement of Business Evaluation, the General
Counsel, and Supply Management.




                                                         5
Supply Management’s Oversight of                                                                      CA-AR-09-005
 Delegations of Authority


required. Once all the required supporting documents and written approvals required by
the “Request for Delegation to Execute” are completed, they are submitted to the
Travel, Retail, and Temporary Services CMC. The CMC then prepares the DOA letter
for the Vice President, Supply Management’s signature. The DOA approval process
requires the ongoing involvement of Business Evaluation, the Law Department, and
Supply Management to ensure financial due diligence, legal advice, negotiation support,
partner selection, and contract terms and conditions are considered.

For each approved DOA, Supply Management issues a letter to the designated
delegatee. The letter defines the authority delegated and states whether or not the
delegated person can re-delegate their authority to another level. This letter also
provides specific instructions to the delegatee and advises them of standard conditions
they must meet. In general, DOA letters have the following minimum control
requirements:

•   Management must treat all suppliers objectively and in a business-like manner.

•   All actions must adhere to the Code of Ethical Conduct for Employees of the
    Executive Branch. Employees were to re-familiarize themselves with the code’s
    content before exercising this authority.

•   When practical, requirements should be competed among qualified suppliers.

•   Management must issue all agreements to the supplier offering the best value6 to
    the Postal Service.

•   Suppliers must submit an annual report each fiscal year summarizing all activities
    under this delegation to allow management to monitor and assess the effectiveness
    of delegations.
OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate Supply Management’s oversight of DOAs. We conducted
this performance audit from September 2008 through May 2009 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. To assist in achieving our objective, we relied on FYs 2007 and 2008 data in
the accounts payable system. We compared the data to information in the financial
reports and believe the evidence obtained provides a reasonable basis for our findings

6
  The Postal Service’s Supplying Principles define best value as the outcome that provides the optimal combination
of elements such as lowest total cost of ownership, technology, innovation and efficiency, assurance of supply, and
quality relative to the Postal Service’s needs.




                                                          6
Supply Management’s Oversight of                                              CA-AR-09-005
 Delegations of Authority


and conclusions based on our audit objectives. We discussed our observations and
conclusions with management on April 6, 2009, and included their comments where
appropriate.

As detailed in the Prior Audit Coverage section in this report, we previously reviewed
the administration of agreements for three DOAs related to EEO – Investigative
Services, EEO – Final Agency Decision Writers, and Medical Services Agreements.
Because of the weaknesses identified in those audits, we judgmentally selected nine
additional DOAs for review to determine the adequacy of Supply Management’s
oversight. These DOAs were selected to ensure a review of a variety of programs.
They are:

                           Name of DOA                 Type of Agreement
    1.       Corporate Library                      Goods and Services
    2.       Corporate Executive Board              Goods and Services
    3.       Corporate Information and Archival     Goods and Services
    4.       EEO – Redress                          Goods and Services
    5.       Legal Services                         Goods and Services
    6.       Personal Services (Route Counters)     Goods and Services
    7.       eBay                                   Marketing
    8.       Customized Postage                     Marketing
    9.       NASCAR                                 Marketing

We reviewed the oversight controls Supply Management put in place over DOAs. In
addition, for each DOA reviewed, we performed the following procedures:

•   We reviewed the DOA approval process and associated supporting documentation.

•   We requested contract file documentation, DOA letters, and FYs 2007 and 2008
    financial reports.

•   We reviewed the DOA letters to determine the conditions outlined in the letters and
    supporting documentation to determine whether the delegatees complied with the
    conditions.

•   We interviewed Supply Management personnel, delegatees, and re-delegatees to
    obtain an understanding of the policies, procedures, and responsibilities.

•   We compared financial reports submitted by delegatees to Postal Service accounts
    payable data to determine whether they accurately reported expenditures in FYs
    2007 and 2008.
          




                                              7
     Supply Management’s Oversight of                                                                   CA-AR-09-005
      Delegations of Authority


     PRIOR AUDIT COVERAGE

     We identified two U.S. Postal Service Office of Inspector General (OIG) reports issued
     within the past 5 years related to the objective of our audit.7

                                           Final
                         Report           Report          Monetary
  Report Title           Number            Date            Impact                     Report Results
The Postal              HM-MA-08-         February               N/A        The selection process for EEO
Service’s Equal            001            21, 2008                          investigative services and final agency
Employment                                                                  decision writers was not adequately
Opportunity                                                                 documented to ensure compliance with
Contracting                                                                 the best value requirements of the
Function                                                                    DOAs. Management agreed with the
                                                                            finding and recommendation.
Controls Over           CA-AR-09-       October 17,         $5,866,413      The National Medical Director, Senior
Delegation of              001             2008                             Area Medical Directors, and District
Authority for                                                               Occupational Health Nurse
Medical                                                                     Administrators could improve controls
Agreements                                                                  over the Medical Services DOA.
                                                                            Management agreed with our findings,
                                                                            recommendations, unsupported
                                                                            questioned costs, questioned costs,
                                                                            and disbursements at risk.




     7
       In March 2008, Supply Management personnel conducted a follow-up review of the Medical Services DOA. They
     concluded that the National Medical Director executed the DOA in accordance with the delegation letter but also
     identified issues and timeframes for correction.




                                                             8
Supply Management’s Oversight of                                                                      CA-AR-09-005
 Delegations of Authority


                                APPENDIX B: DETAILED ANALYSIS

Procedures for Maintaining the DOA List and Files

The Travel, Retail, and Temporary Services CMC did not have procedures for
maintaining a DOA list and DOA files. Upon our request for universe information in
October 2008, the Travel, Retail, and Temporary Services CMC provided us a list of 65
DOAs. However, they stated the list was not up to date. For example, there were
several delegatees who were no longer employed by the Postal Service or no longer in
positions associated with the DOAs. Some of the DOAs dated back to 1998 and had
not been updated. Also, CMC personnel advised that there were some DOAs they
needed to delete and new ones they needed to add to the list. The CMC is still in the
process of updating the list. The CMC also did not have reports or current data on the
DOAs in the files.

The PMG’s October 26, 2004, letter initiating the DOA process stresses the importance
of a rigorous business process to ensure appropriate due diligence and oversight for
Postal Service contracts, regardless of whether contractual authority has been
delegated. Appropriate contract management is central to ensuring due diligence and
appropriate oversight. The Postal Service’s Supplying Principles and Practices states
that contract management is the process of ensuring the intent, requirements, and
terms and conditions of a contract are met from inception to end of life. Contract
management activities must be accurately and frequently performed to keep contract
documentation updated. Proper contract management is vital to the success of the
DOA program. This includes maintaining a list and files of active DOAs.

Procedures to Ensure Compliance with DOA Minimum Control Requirements

The Travel, Retail and, Temporary Services CMC did not document and implement a
process to ensure delegatees complied with the minimum control requirements
established in the DOA letters. We identified issues with delegatees not documenting
how best value was achieved when awarding agreements to suppliers, not providing
activity reports to the Travel, Retail, and Temporary Services CMC, and not complying
with ethics requirements.

Best Value Determinations

Eight of the 12 DOAs reviewed required delegatees to award agreements to the
suppliers offering the best value to the Postal Service8. Three of the eight delegatees
could not provide documentation showing how they did so. Specifically, our prior audit
reports on the EEO – Investigative Services, EEO – Final Agency Decision Writers, and
Medical Services DOAs disclosed that delegatees were not maintaining documentation

8
 Three of the programs (eBay, Customized Postage, and NASCAR) are not goods and service-oriented and did not
require best value determinations. A fourth program for Personal Services (Route Counters) includes specific criteria
for contracting with Postal Service annuitants and also did not require best value determinations.




                                                          9
Supply Management’s Oversight of                                                                        CA-AR-09-005
 Delegations of Authority


to support this scenario. Additionally, the letter delegating authority to enter into a
noncompetitive agreement and two noncompetitive contracts related to a NASCAR
sponsorship did not include a best value requirement.

The Postal Service’s Supplying Principles and Practices states the Postal Service bases
its sourcing and material management decisions on best value, which is generally
achieved through competition.

Supply Management did not have procedures in place to require the delegatees to
create and maintain documentation to demonstrate agreements entered into under the
DOAs were competed among qualified suppliers or how best value was otherwise
achieved. In order for Supply Management to validate that the delegatees are
achieving best value, the delegatees should be required to document their processes
for selecting suppliers and their control and oversight over those processes.

Reporting Activities

Delegatees for 11 of the programs reviewed were required to report their activities to the
Travel, Retail, and Temporary Services CMC.9 The CMC did not have procedures in
place to ensure it received activity reports and to follow up on those it did not receive.
CMC personnel developed an annual supplier diversity report for delegatees to
complete; however, the report does not include detailed financial activities including the
number of agreements entered into and associated expenditures. Additionally, CMC
personnel stated (and we observed) that delegatees were not always responsive to their
data requests. Seven of the 11 delegatees (64 percent) could not produce timely
activity reports upon our request.

The Vice President, Supply Management, issued a letter on August 25, 2005, which
stated that an approved DOA will include appropriate reporting requirements to ensure
that necessary information can be provided to the PMG, Board of Governors, or
interested parties. Also, the Request for Delegation to Execute form, dated March 20,
2007, states the EC member requesting the DOA agrees to provide an annual report of
financial activity for each FY using Supply Management’s reporting template and a
quarterly report to Business Evaluation in the Finance Organization. The failure to
provide these reports will result in rescission of the DOA.

Without annual reports, Supply Management cannot adequately oversee DOAs.




9
 The eBay DOA did not include a reporting requirement as it is not possible to capture supplier diversity statistics for
eBay shippers and revenue figures resulting from the DOA are readily available through Postal Service systems. The
other 10 programs were required to report their activities annually. The NASCAR program was also required to
report its activities quarterly to the Postal Service’s Business Evaluation Group.




                                                          10
Supply Management’s Oversight of                                                                   CA-AR-09-005
 Delegations of Authority


Annual Ethics Training

Eleven of the 12 DOAs reviewed contained an annual ethics requirement.10 For the 11
programs, there were 47 delegatees or re-delegatees. Thirty-five of the 47 delegatees
(74 percent) could not provide verification that they had completed ethics training and
Supply Management did not have procedures in place to verify completion of the
training.

The DOA letters generally state that all actions must adhere to the Code of Ethical
Conduct for the employees of the executive branch and that the delegatees should
familiarize themselves with the code’s content before exercising this authority. The
Postal Service Law Department advised that 5 C.F.R 2638.701(c), Annual Ethics
Training for Other Covered Employees, states that Office of Government Ethics Form
450 filers, contracting officers, and other employees designated by the Postal Service
must receive 1 hour of verbal ethics training once every 3 calendar years and written
training, as specified by the agency, in each year in which verbal training is not required.
Since the delegatees are authorizing Postal Service expenditures, they fall under the
“other employees designated by the Postal Service” category. Ensuring that all
delegatees and re-delegatees have completed ethics training reduces the Postal
Service’s financial and legal risks.




10
  The eBay DOA is a revenue-based program that is strictly based on consumer use of the Postal Service for mailing
eBay purchases. Thus, an ethics requirement was not necessary.




                                                       11
Supply Management’s Oversight of                          CA-AR-09-005
 Delegations of Authority


                      APPENDIX C: MANAGEMENT’S COMMENTS




                                     12
Supply Management’s Oversight of        CA-AR-09-005
 Delegations of Authority




                                   13
